No. 20-1088

 

 

IN THE

Supreme Court of the United States

DAVID and Amy CARSON, as parents and
next friends of O.C., and TROY and ANGELA NELSON,
as parents and next friends of A.N. and R.N.,

Petitioners,
v.

A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of Education,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the First Circuit

BRIEF OF EDCHOICE AS AMICUS CURIAE
SUPPORTING PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

5,982 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 11, 2021.

Colin cavedhionen

Wilson-Epes Printing Co., Inc.
